WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-6423
v.

Byron Lee

(Petitioner)

AT&T Services, Inc., et al.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature s/Benjamin Gross Shatz
Date 11/30/2020
(Type or print) Name Benjamin Gross Shatz
Mr.

Ms.

Mrs.

Miss

Firm Manatt, Phelps & Phillips, LLP
Address 2049 Century Park East, Suite 1700
City & State Los Angeles, CA
Phone (310) 312-4383

Zip 90067
Email BShatz@manatt.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF
THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Byron Lee

